HHS/OIG, Audit - "Review of CIGNA's Fiscal Year 1996-2001 Medicare Final Administrative Cost Proposals," (A-04-02-02022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of CIGNA's Fiscal Year 1996-2001 Medicare Final Administrative Cost Proposals," (A-04-02-02022)
December 16, 2003
Complete
Text of Report is available
in PDF format (246 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the costs CIGNA claimed on its Final Administrative Cost Proposals for
administering the Medicare Part B and DMERC contracts for the period October 1, 1995 through September 30, 2001 were reasonable,
allocable, and allowable for Medicare reimbursement.  We concluded that $370,602 of direct costs were unallowable
and $30,690,542 of indirect costs were considered unsupported and set aside for adjudication by the Centers for Medicare
and Medicaid Services (CMS).  We recommended financial adjustments and procedural improvements.